              The Criminal Investigation Function Has Made
              Progress in Investigating Criminal Tax Cases;
                      However, Challenges Remain

                                    March 2005

                       Reference Number: 2005-10-054




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        March 31, 2005


      MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION



      FROM:                            Pamela J. Gardiner
                                       Deputy Inspector General for Audit

      SUBJECT:                         Final Audit Report - The Criminal Investigation Function Has
                                       Made Progress in Investigating Criminal Tax Cases; However,
                                       Challenges Remain (Audit # 200310042)


      This report presents the results of our review of the Criminal Investigation (CI) function’s
      efforts to increase the number of legal source income tax investigations. In general,
      legal source investigations involve legal occupations or industries and legally earned
      income in which the primary motive is the violation of tax statutes. The CI function also
      conducts investigations relating to illegally earned income and illegal activities. During
      Fiscal Year (FY) 2004, the CI function reported that legal source investigations
      represented about 35 percent of all subject investigations opened and about 43 percent
      of all direct investigative time (DIT).1 This audit was initiated as part of the Treasury
      Inspector General for Tax Administration’s FY 2004 Annual Audit Plan and due to
      concerns raised by the Senate Finance Committee about the CI function’s efforts to
      increase legal source income tax investigations.
      In summary, the CI function began addressing these concerns by creating a revised
      mission statement, developing a compliance strategy designed to guide the CI function
      to develop and investigate cases that foster confidence in the tax system, publicizing
      the results of its investigations, and conducting an empirical study to determine the
      effect investigations have on voluntary compliance.
      The CI function’s compliance strategy is comprised of three distinct, yet interdependent,
      program areas: legal source tax crimes, illegal source financial crimes, and
      narcotics-related financial crimes. Various strategic documents issued since July 2000



      1
          DIT is defined as the time spent by special agents conducting investigations and other law enforcement activities.
                                                          2

illustrate the CI function’s commitment to legal source and other tax-related2
investigations. The CI function made a slight change to its investigative strategy (as
illustrated in the FYs 2004 and 2005 Annual Business Plans) that emphasizes
maintaining a focus on legal source investigations, rather than increasing, its resources
on these investigations. According to CI function executives, this current strategy
focuses on developing and investigating those cases which would have the greatest
compliance impact. The CI function will continue to emphasize investigations, both
legal and illegal source, that adversely affect tax administration. Further, CI function
management believes success toward achieving this strategy is measured by such case
closing statistical indicators as completed investigations, Department of Justice
acceptance rates, publicity rates, and average months sentenced.
We compiled various statistics that depict the CI function’s inventory and results for all
tax-related and legal source income tax investigations for FYs 1999 through 2004. The
CI function has made progress in increasing all tax-related investigations, but the level
of legal source income investigations did not materially change during this period.
Further, recent trends for FYs 2002 through 2004 are mixed for both tax-related and
legal source investigations.
Because there are no specific criteria that govern the mix of the CI function’s workload,
we could not conclusively determine whether the CI function is conducting enough legal
source income tax investigations or to what extent it can or should increase the number.
We believe it is up to CI function management and the Internal Revenue Service (IRS)
Commissioner, in concert with Congressional and Administration budget and tax law
enforcement priorities, to determine how the CI function should devote resources to
pursue those cases that have the greatest impact on voluntary compliance.
To assist in this effort, we identified several areas in which the CI function can make
improvements to the legal source investigative program and more effectively measure
the program. First, we believe the CI function can do more to increase its focus on
investigations developed from internal sources, starting with the fraud referral program.
Although the CI and compliance functions have made efforts, they have been unable to
reinvigorate the fraud referral program. In addition, the CI function has not fully
maximized the use of general investigations (GI)3 as a means to identify and develop
legal source income investigations.
In addition, the CI function faces a continuing challenge to make choices on the types of
investigations to pursue that have the greatest impact on tax compliance. The
CI function has a reputation as being one of the best financial investigative agencies in
the Federal Government, and other agencies are continually asking for assistance. The


2
  The CI function defines tax-related as any violation of Title 26 United States Code (U.S.C.) (the Internal Revenue
Code) and the following Title 18 U.S.C. sections (§): §§ 286 and 287 (2004), § 371 (k) (2004) relating to a Title 26
violation, and § 371 (b) (2004) relating to a Title 26 and a Title 31 violation. Title 18 includes false claims and
money laundering, and Title 31 involves currency reporting requirements.
3
  A study, survey, or canvassing activity on a number of individuals or entities within categories, such as occupation
or industry. It is initiated to identify noncompliance with the laws enforced by the IRS.
                                             3

CI function also participates in many other Federal law enforcement initiatives. Its
participation in these investigations has to be balanced with the need to ensure the
CI function meets its primary mission of investigating criminal tax violations.
We also identified inaccuracies and inconsistencies in the recording of data in the
CI function’s management information system that may prevent CI function
management from properly evaluating the status or effectiveness of their programs,
including efforts in the legal source investigations program.
We recommended the Chief, CI, establish a fraud coordinator in each field office,
establish control procedures for processing fraud referrals, issue guidelines to
emphasize the use of GIs, ensure appropriate management tools are used to monitor
and evaluate the results of GIs, and issue guidelines on the types of GIs that should be
classified as legal source investigations. We also recommended the Chief, CI, establish
national goals on key statistical indicators (such as the percentage of legal source
income investigations or DIT) the CI function should strive to achieve and establish
additional criteria for accepting referrals from other government agencies and the United
States Attorneys Offices. Finally, we recommended the Chief, CI, conduct an analysis
to determine the impact inconsistent coding has on the classification of investigations
and, if warranted, modify the management information system so the coding properly
reflects the nature of the investigation and the measurement of the CI function’s
compliance strategy.
Management’s Response: The Chief, CI, agreed with seven of the eight
recommendations in this report and has already taken steps to correct some of the
issues identified. The Chief, CI, issued a detailed policy memorandum designating
fraud referral coordinators and reemphasizing fraud referral operating procedures. The
Chief, CI, also agreed to reemphasize the need to monitor all GIs and CI function
management will issue a memorandum reminding the field not to neglect the
appropriate use of GIs in developing future legal source income investigations. In
addition, the CI function’s Annual Business Plan requires CI function management to
continue to focus its investigative resources on legal source tax investigations and the
FY 2005 performance agreements contain a commitment to work cooperatively with the
Department of Justice and law enforcement partners to investigate other high-impact
financial crimes and money laundering cases, with an emphasis on increasing or
maintaining the balance of Title 26 and Title 31 violations. Finally, the Chief, CI, agreed
to clarify the fraud scheme code section of the CI function’s management information
system (CIMIS) and to determine what investigations are incorrectly coded in the CIMIS
and correct them.
The Chief, CI, did not agree with our recommendation to establish a national goal on
key statistical indicators such as the percentage of legal source income investigations or
direct investigative time. The Chief, CI, believes that since there is no empirical data on
which to base a specific target level of legal source investigations, creating such a goal
would be arbitrary. Further, the statistical indicators reveal the CI function is currently
working at or near an optimal case mix, which is supported by the conclusions of a
                                             4

recent empirical study. Management’s complete response to the draft report is included
as Appendix V.
Office of Audit Comment: We made the recommendation to establish a national goal on
key statistical indicators because we believe it is difficult to effectively measure program
success or identify and investigate deviations without having an established standard or
goal. In the formal response, the Chief, CI, indicated the priority given to legal source
income tax cases is clearly stated in the performance management commitments as
follows, “I will continue to focus on legal source tax investigations by increasing or
maintaining the percentage of legal source inventory and legal source direct
investigative time (DIT) to reinforce CI’s core mission.” We believe it is necessary to
establish a numeric goal to provide an effective means for measuring and analyzing
progress. While we recognize the CI function’s concerns that its work is cyclical and it
needs flexibility to be able to respond to emerging issues, we believe establishing any
goal as a range would provide the needed flexibility. While we still believe our
recommendation is worthwhile, we do not intend to elevate our disagreement
concerning it to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
           The Criminal Investigation Function Has Made Progress in Investigating
                     Criminal Tax Cases; However, Challenges Remain



                                                  Table of Contents


Background ............................................................................................... Page 1
The Criminal Investigation Function Has Taken Actions to
Address Concerns About Criminal Tax Investigations .............................. Page 4
The Status of the Criminal Investigation Function’s
Legal Source Program .............................................................................. Page 7
Improvements Are Needed in the Fraud Referral Program and
the Use of General Investigations ............................................................. Page 9
         Recommendation 1: .......................................................................Page 14
         Recommendations 2 through 4:.....................................................Page 15

The Criminal Investigation Function Must Make Choices on the
Types of Investigations to Pursue That Affect Compliance ....................... Page 16
         Recommendation 5: .......................................................................Page 20
         Recommendation 6: .......................................................................Page 21

The Criminal Investigation Management Information System
Does Not Accurately Reflect Efforts to Increase
Legal Source Investigations ...................................................................... Page 22
         Recommendations 7 and 8: ...........................................................Page 28

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 29
Appendix II – Major Contributors to This Report ....................................... Page 32
Appendix III – Report Distribution List ....................................................... Page 33
Appendix IV – Criminal Investigation Function Statistical Indicators ......... Page 34
Appendix V – Management’s Response to the Draft Report ..................... Page 44
        The Criminal Investigation Function Has Made Progress in Investigating
                  Criminal Tax Cases; However, Challenges Remain

                                 In support of the overall Internal Revenue Service (IRS)
Background
                                 mission, the Criminal Investigation (CI) function’s mission
                                 is to serve the American public by investigating potential
                                 criminal violations of the Internal Revenue Code (I.R.C.)
                                 and related financial crimes in a manner that fosters
                                 confidence in the tax system and compliance with the law.
                                 The IRS Strategic Plan for Fiscal Years (FY) 2005 to 2009
                                 provides that enforcing tax compliance is critical to
                                 maintaining Americans’ expectation that the system is fair
                                 and outlines several objectives to meet the goal of enhanced
                                 enforcement, including discouraging and deterring
                                 noncompliance with emphasis on corrosive activity by
                                 corporations, high-income individual taxpayers, and other
                                 contributors to the tax gap (the difference between taxes
                                 paid and owed). The IRS Commissioner has also repeatedly
                                 stressed the importance and role of tax enforcement in
                                 overall tax compliance by recognizing the need to increase
                                 levels of various enforcement activities to provide a proper
                                 balance between service and enforcement.
                                 The CI function is the only law enforcement organization
                                 with the authority to investigate criminal tax violations. Its
                                 financial investigative expertise has been recognized and
                                 increasingly sought by prosecutors and other investigative
                                 agencies, and its investigative jurisdiction has expanded
                                 over the years to include money laundering1 and Bank
                                 Secrecy Act2 criminal violations. These laws have led to
                                 greater participation by the CI function in the financial
                                 investigative environment and have enabled the IRS to
                                 identify and investigate tax evasion cases involving legal
                                 and illegal income sources. The CI function also
                                 participates in many other Federal Government enforcement
                                 initiatives.
                                 In general, legal source investigations involve legal
                                 occupations or industries and legally earned income in
                                 which the primary motive is the violation of tax statutes.
                                 Illegal source investigations involve illegally earned income

                                 1
                                   18 United States Code (U.S.C.) Sections (§§) 1956 and 1957 (2004).
                                 2
                                   Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended
                                 in scattered sections of 12 U.S.C., 15 U.S.C., and 31 U.S.C.)
                                 Regulations for the Bank Secrecy Act, and other related statutes, are
                                 31 C.F.R. § 103.11-103.77 (2002).
                                                                                                Page 1
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         and include money laundering and currency reporting
                         crimes. Illegal source investigations may or may not
                         include tax or tax-related violations.3
                         This review was performed in the CI function National
                         Headquarters (HQ) office in Washington, D.C., and the
                         Denver, Colorado; New York, New York; and
                         Charlotte, North Carolina, CI function field offices during
                         the period February through August 2004. In
                         December 2004, we updated the charts that depict various
                         statistical indicators relating to the CI function’s workload
                         and performance to incorporate FY 2004 data. The review
                         was initiated as part of the Treasury Inspector General for
                         Tax Administration’s (TIGTA) FY 2004 Annual Audit Plan
                         and because the Senate Finance Committee (SFC) raised
                         concerns about the CI function’s efforts to increase legal
                         source income tax cases.
                         Our overall objective was to evaluate the CI function’s
                         efforts to increase the number of legal source income tax
                         investigations. We encountered a significant scope
                         limitation that precluded us from fully addressing this
                         objective. We were not granted full access to entire
                         administrative investigative case files. Rather, the
                         CI function provided, as mutually agreed, the requested case
                         information necessary to accomplish our objective, which
                         we did not review at the source point.
                         However, we did not receive sufficient, competent, relevant,
                         and timely information to complete all of our audit tests,
                         particularly those tests that involved a review of grand jury
                         cases. Under Federal rules of evidence, certain investigative
                         information in grand jury cases may not be shared with
                         individuals who are not shown on a list authorizing such
                         access. As part of the grand jury procedures governing
                         disclosure of information, the CI function engaged local IRS




                         3
                           The CI function defines tax-related as any violation of Title 26 U.S.C.
                         (the I.R.C.) and the following Title 18 U.S.C. sections: §§ 286 and
                         287 (2004), § 371 (k) (2004) relating to a Title 26 violation, and
                         § 371 (b) (2004) relating to a Title 26 and a Title 31 violation. Title 18
                         includes false claims and money laundering, and Title 31 involves
                         currency reporting requirements.
                                                                                            Page 2
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         Criminal Tax Counsel4 and the Assistant United States
                         Attorneys (AUSA) to determine what information, if any,
                         from the cases we requested was considered grand jury
                         material and, thus, was restricted from being provided to us.
                         Ultimately, the AUSAs were the final authority on what we
                         could review.
                         In addition, the CI function instituted procedures that
                         prevented us from obtaining any documents directly from
                         the field offices, requiring the field offices to first provide
                         the information to the CI function HQ office to determine if
                         the request was within the scope of the audit. The purpose
                         of this procedure was to ensure we received requested
                         information timely and in an orderly manner and all
                         documents provided were responsive to our request. We are
                         unaware of any instances in which the CI function HQ
                         office eliminated documents from the field in responding to
                         the audit. Nonetheless, because we could not examine
                         documents at the source, we could not independently
                         confirm that all examples of pertinent documents submitted
                         to the CI function HQ office from the field were, in turn,
                         forwarded to us.5
                         CI function and TIGTA management cooperated to the
                         fullest extent possible on this matter; however, due to the
                         aforementioned grand jury process, we either did not receive
                         any information, or received only partial and incomplete
                         information, on a majority of the grand jury cases. Since a
                         majority of investigations are categorized as grand jury,
                         without access to certain information from those
                         investigations, we could not fully answer our objectives
                         with a sufficient degree of confidence. Therefore, some of
                         our review results are based on limited observations and
                         analyses and may not be representative of the population.
                         With the exception of the scope limitation described above,
                         the audit was conducted in accordance with Government
                         Auditing Standards. Detailed information on our audit

                         4
                           A function within the IRS Office of Chief Counsel responsible for
                         providing legal guidance to the CI function.
                         5
                           We subsequently met with CI function management to establish a
                         revised process that would allow us to conduct our audit work more
                         independently and minimize these types of scope limitations in the
                         future.
                                                                                         Page 3
         The Criminal Investigation Function Has Made Progress in Investigating
                   Criminal Tax Cases; However, Challenges Remain

                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  Throughout this audit, we discussed our preliminary results
                                  with CI function management and made changes to the
                                  report where applicable. In the management response to
                                  this report, the Chief, CI, provided further explanation on
                                  the CI function’s position on many of the issues presented in
                                  this report. We acknowledge this additional information,
                                  and believe we previously addressed the underlying issues
                                  in the report text, footnotes, or appendices. Further, we are
                                  pleased that the Chief, CI, has already taken or plans to take
                                  corrective actions to seven of our eight recommendations,
                                  which should strengthen the legal source income tax
                                  program. Management’s complete response to the draft
                                  report is included as Appendix V.
                                  Through the years, the Government Accountability Office
The Criminal Investigation
                                  (GAO)6 and the Webster Report7 have raised concerns about
Function Has Taken Actions to
                                  the CI function’s ability to show how its resources were
Address Concerns About
                                  being used to address allegations of criminal tax violations.
Criminal Tax Investigations
                                      •   In a November 1997 report, the GAO reported that
                                          two IRS studies conducted in the early 1990s raised
                                          questions about the CI function’s investigative
                                          priorities because its investigative workload was
                                          increasingly comprised of nontax investigations, to
                                          the detriment of tax investigations.
                                      •   In April 1999, the Webster Report expressed
                                          concern that the CI function had drifted away from
                                          its primary mission of supporting the administration
                                          of the internal revenue laws.
                                  The CI function addressed these concerns by taking three
                                  major steps:
                                      •   Creating a revised mission statement and developing
                                          a compliance strategy to help guide the CI function
                                          to develop and investigate cases that foster

                                  6
                                    Tax Administration: IRS’ Efforts to Place More Emphasis on Criminal
                                  Tax Investigations (GCD-98-16, dated November 1997).
                                  7
                                    Review of the Internal Revenue Service’s Criminal Investigation
                                  Division (Publication 3388; 4-1999), also known as the Webster Report.
                                                                                                Page 4
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                                confidence in the tax system and compliance with
                                the laws.
                            •   Aggressively publicizing the results of its
                                investigations.
                            •   Conducting an empirical study to determine the
                                effect investigations have on voluntary compliance.
                         Compliance strategy
                         The CI function’s revised strategy, established in
                         October 1999, is comprised of three distinct, yet
                         interdependent, program areas: legal source tax crimes,
                         illegal source financial crimes, and narcotics-related
                         financial crimes.
                         Various strategic documents issued since July 2000
                         illustrate the CI function’s commitment to legal source and
                         other tax-related investigations. The priority for legal
                         source income tax investigations follows from the fact that
                         the CI function is the only law enforcement organization
                         with the authority to investigate these types of allegations.
                         CI management clearly articulated this priority in its
                         strategic documents. For example:
                            •   The Strategic Plan for FYs 2000 to 2002, dated
                                July 2000, listed as a major strategy for the
                                CI function to focus resources on increasing tax
                                compliance through legal source income cases.
                            •   The Strategy and Program Plan (SPP) for FYs 2002
                                and 2003, dated July 2001, reaffirmed the
                                CI function’s primary mission – the investigation of
                                legal source income tax cases. The first strategy
                                provided for increased support of compliance efforts
                                in the operating divisions through increased
                                application of resources on legal source income tax
                                cases.
                            •   The FY 2003 Annual Business Plan (ABP), dated
                                October 2002, provided that the CI function would
                                continue to emphasize legal source and other
                                tax-related investigations and listed legal source tax
                                crimes as the top investigative priority. The plan
                                also described that the CI function will increase

                                                                                Page 5
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                                 support of Servicewide compliance efforts by
                                 increasing the application of resources on legal
                                 source tax cases.
                         In the FYs 2004 and 2005 ABPs, the CI function made a
                         slight change to its investigative strategy that emphasizes
                         maintaining a focus on legal source investigations, rather
                         than increasing its resources on these investigations. The
                         CI function will continue to emphasize investigations, both
                         legal and illegal source, that adversely affect tax
                         administration.
                         According to CI function executives, this current strategy
                         focuses on developing and investigating those cases which
                         would have the greatest compliance impact. Further,
                         CI function management believes success toward achieving
                         this strategy is measured by such case closing statistical
                         indicators as completed investigations, Department of
                         Justice acceptance rates, publicity rates, and average months
                         sentenced.
                         The CI function believes it has achieved its strategic goal of
                         optimizing the number of tax investigations. In addition,
                         the Chief, CI, stated that, with a renewed focus on
                         investigative priorities, the CI function is pursuing exactly
                         the right mix of cases that will most effectively target the
                         compliance gap.8
                         Increased publicity
                         The CI function established an aggressive media campaign
                         to publicize the results of its investigations. A former Chief,
                         CI, stated publicity helps accomplish the Webster Report
                         recommendation to increase public knowledge and respect
                         for the CI function’s tax deterrence mission. The CI
                         function established Public Information Officer positions in
                         each of its field offices to serve as a liaison to promote
                         publicity of its cases and to provide outreach of CI function
                         activities.
                         These efforts have resulted in an increase in publicity on
                         both legal and illegal income source investigations. Since
                         FY 1999, the publicity rates for legal and illegal source

                         8
                          Source: American Bar Association Quarterly Newsletter –
                         August 2004.
                                                                                    Page 6
            The Criminal Investigation Function Has Made Progress in Investigating
                      Criminal Tax Cases; However, Challenges Remain

                                     investigations have increased 13 and 8 percentage points,
                                     respectively.
                                     Empirical study
                                     According to the Webster Report, it was unknown with
                                     reasonable certainty what, if any, effect the CI function’s
                                     investigations have upon voluntary compliance or general
                                     deterrence. The Webster Report recommended the CI
                                     function craft its caseload based on empirical research and
                                     an IRS compliance strategy that focuses on tax enforcement
                                     and the fostering of voluntary compliance.
                                     To address this, the CI function contracted with a consultant
                                     to conduct a study using empirical data to determine
                                     whether its investigative activities have a measurable impact
                                     on compliance. The CI function also requested the outside
                                     consultant test three other variable data sets as they relate to
                                     compliance impact as follows: 1) mix of investigation type,
                                     2) impact of publicity, and 3) difference in impact of
                                     incarceration versus probation.
                                     The study concluded CI function activities have a
                                     measurable effect on voluntary compliance and the mix of
                                     CI function sentenced cases (relating to tax versus money-
                                     laundering investigations) is not a significant determinant of
                                     tax compliance, perhaps because the mix has already been
                                     optimally set. As of December 2004, the study results had
                                     not been formally published.9
                                     The premise of the Webster Report was the CI function had
The Status of the Criminal
                                     drifted from its primary mission and needed to redefine its
Investigation Function’s Legal
                                     strategy to focus its investigations on legal occupations in
Source Program
                                     legal industries where the untaxed income is derived from
                                     legal sources. Also, as historically perceived by the IRS,
                                     legal source income tax investigations, on average, carry a
                                     stronger deterrent against tax crimes to the American public
                                     than illegal source tax investigations. In an October 2003
                                     memorandum to the TIGTA, the SFC expressed concerns
                                     about the CI function’s efforts to increase legal source
                                     income tax investigations and requested we begin our
                                     planned coverage of this issue.


                                     9
                                      This study has been submitted through the academic peer review
                                     process for publication.
                                                                                                  Page 7
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         We compiled various statistics that depict the CI function’s
                         inventory and results for all tax-related and legal source
                         investigations for FYs 1999 through 2004. The CI function
                         has made progress in increasing all tax-related
                         investigations, but the level of legal source investigations
                         did not materially change during this period. Also, recent
                         trends for FYs 2002 through 2004 are mixed for both
                         tax-related and legal source tax investigations. Appendix IV
                         provides graphs that depict these trends.
                         Because there are no specific criteria that govern the mix of
                         the CI function’s workload, we could not conclusively
                         determine whether the CI function is conducting enough
                         legal source income investigations or to what extent it can
                         or should increase the number. Furthermore, the
                         aforementioned scope limitations precluded us from
                         reviewing sufficient numbers of investigations to determine
                         the nexus of these investigations to tax administration.
                         In discussing our preliminary review results, the Chief, CI,
                         expressed concern that our conclusion might imply that the
                         sheer number of increases in legal source investigations is
                         the goal, rather than an inventory of high-quality,
                         high-impact legal source cases balanced with illegal income
                         source cases. Also, the Chief, CI, stated the CI function has
                         attained 4-year highs in several case closing statistical
                         indicators in the legal source program, which convey
                         progress in achieving the CI function’s strategies.
                         We recognize that mere increases in legal source
                         investigative activity are not the only measure of program
                         success and the results of the investigations also play an
                         important role in evaluating program achievements.
                         We agree with the CI function that setting the right mix of
                         case types is a matter of skilled judgment. CI function
                         management and the IRS Commissioner, in concert with
                         Congressional and Administration budget and tax law
                         enforcement priorities, should determine how the
                         CI function devotes its resources to pursue those cases that
                         have the greatest impact on voluntary compliance. We also
                         believe, when results of the previously mentioned study are
                         published, the CI function should consider them in the
                         context of all of its stated objectives and investigative
                         priorities when evaluating the proper mix of legal source,
                                                                                Page 8
           The Criminal Investigation Function Has Made Progress in Investigating
                     Criminal Tax Cases; However, Challenges Remain

                                    tax-related, and nontax-related types of investigations. To
                                    assist in this effort, we identified several areas in which the
                                    CI function can make improvements to the legal source
                                    investigative program and more effectively measure the
                                    program’s impact on tax compliance.

Improvements Are Needed in the      Historically, internal IRS programs have been the primary
Fraud Referral Program and the      sources of cases involving pure tax violation investigations.
Use of General Investigations       Between FYs 1999 and 2004, almost 60 percent of legal
                                    source investigations came from within the IRS, while less
                                    than 20 percent of legal source investigations came from a
                                    United States Attorney Office (USAO) or other government
                                    agencies. We evaluated certain aspects of the CI function’s
                                    fraud referral and general investigation (GI) programs to
                                    gauge their effectiveness in the CI function’s efforts to
                                    increase legal source tax investigations.
                                    In our opinion, the CI function could do more to cultivate
                                    investigations from within the IRS to address the various
                                    concerns that have been raised by the Webster Report, the
                                    Congress, and the GAO on increasing legal source
                                    investigations or to fully conform to its stated ABP
                                    priorities. Specifically:
                                       •   IRS efforts to reinvigorate the fraud referral program
                                           have not been effective.
                                       •   The CI function has not made effective use of GIs.
                                    IRS efforts to reinvigorate the fraud referral program
                                    have not been effective
                                    The Webster Report cited concerns about the declining
                                    number of quality criminal referrals to the CI function from
                                    the IRS compliance functions. In response, both the CI and
                                    compliance functions took steps to reinvigorate the fraud
                                    referral program, including:
                                       •   Creating fraud referral specialist positions in the
                                           compliance functions.
                                       •   Establishing a communication and feedback process.




                                                                                             Page 9
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                              •   Assigning processing responsibility to the
                                  CI function Lead Development Centers (LDC).10
                         According to the IRS Strategic Plan for FYs 2000 to 2005,
                         the IRS will focus on increasing tax compliance in legal
                         source income investigations through invigorating the fraud
                         referral program.11 An operational priority, as listed in the
                         CI function’s FY 2004 ABP, is to continue to promote fraud
                         awareness, actively support efforts to enhance the fraud
                         referral program, timely evaluate referrals, and hold
                         conferences with the compliance functions.
                         Despite these attempts, the fraud referral program has not
                         been reinvigorated. After a dramatic decline in FY 2000,
                         referrals increased steadily through FY 2003. However,
                         even with the emphasis on referrals, the total number of
                         referrals decreased slightly in FY 2004 and is still below the
                         level at the time the Webster Report was issued, as shown
                         by Chart 1.




                         10
                            The CI function currently operates five LDCs. Their primary function
                         is to identify and develop quality investigations to meet the CI
                         function’s business plan. The LDCs assist CI field offices by
                         conducting research and analysis on alleged noncompliance.
                         11
                            The IRS Strategic Plan for FY 2005 to 2009, published in June 2004,
                         does not contain a specific reference to the fraud referral program.




                                                                                       Page 10
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                                              Chart 1: Summary of Fraud Referrals
                                                          FY      FY      FY      FY      FY       FY
                                                         1999    2000    2001    2002    2003     2004
                                              12           605     436     486     526     559      530
                         Referrals Received

                         Percentage of Referrals         44.3%   50.8%   53.8%   62.9%   61.2%    58.0%
                         Accepted

                         Percentage of Subject           9.4%    9.3%    9.3%    11.1%   10.9%    10.7%
                         Investigations from Referrals

                         Percentage of Prosecution       11.5%   11.0%   8.7%    8.8%    7.6%     8.1%
                         Recommendations from
                         Referrals

                         Source: The CI function’s Business Performance Reviews, TIGTA
                         analysis of the CI function Management Information System (CIMIS), or
                         CIMIS Report 11, Program Summary Analysis.

                         We analyzed the CIMIS data relative to fraud referrals,
                         reviewed all 25 fraud referrals rejected by the 3 field offices,
                         and interviewed CI function field office management and
                         compliance function fraud referral specialists. The results
                         of these reviews indicate the CI function has not placed
                         enough emphasis on timely working referrals,
                         communicating results with the compliance functions, and
                         establishing or using existing controls to manage the
                         processing of referrals. For example:
                              •    During FY 2003, the CI function took an average of
                                   93 calendar days to make a decision to accept or
                                   decline 521 referrals. The goal was 30 workdays.13
                              •    In the 25 cases we reviewed, there were no records
                                   that the CI function held 51 percent of the required
                                   conferences with the compliance functions.
                              •    Some CI function managers and fraud referral
                                   specialists believed fraud has a low standing in the
                                   compliance function, and others believed fraud
                                   referrals are not a high priority with the AUSA
                                   offices.


                         12
                            This is the number of initial referrals (primary investigations) received
                         from the compliance functions. The CI function will evaluate these
                         referrals and, if criminal potential exists, will open a subject
                         investigation.
                         13
                            Accounting for weekends and holidays, 30 workdays would be about
                         42 calendar days.
                                                                                                Page 11
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         We believe these factors contribute to the inability to
                         increase the number and quality of fraud referrals. We also
                         believe the absence of a fraud referral coordinator in the
                         CI function field offices has a negative impact on the fraud
                         referral program. We had recommended in a prior review of
                         the LDCs14 that fraud referral coordinators in the CI function
                         field offices, rather than the LDCs, receive, number, and
                         assign fraud referrals. In response to our LDC report, the
                         CI function’s proposed redesign of the LDCs provided that
                         fraud referrals would be sent directly to the CI function field
                         offices. However, the three field offices we visited during
                         our current review did not have a fraud referral coordinator.
                         The CI function field offices have coordinators for many
                         program areas (including questionable refunds, terrorism,
                         suspicious activity reports, and more recently, corporate
                         fraud) who act as liaisons for the respective program areas.
                         For example, the terrorism coordinators are responsible for
                         contacting representatives of the various terrorism-related
                         task forces (e.g., Joint Terrorism Task Force and the USAO
                         anti-terrorism task force) and reporting the terrorism-related
                         activities of the field office to the CI function HQ office.
                         We believe not having a designated fraud coordinator to
                         handle referrals from the civil functions is an indication the
                         CI function is not fully committed to improving the fraud
                         referral program.
                         The CI function recently conducted an assessment of the
                         fraud referral program and concluded the program continues
                         to be a logical and critical source of legal source income tax
                         investigations; therefore, the CI and compliance functions
                         must continue to find ways to elevate their partnership to
                         identify emerging areas of fraud.




                         14
                           Lead Development Centers Do Not Significantly Contribute to
                         Increases in Legal Source Cases (Reference Number 2003-10-201,
                         dated September 2003).
                                                                                   Page 12
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         The CI function has not made effective use of GIs
                         A GI is a study, survey, or canvassing activity on a number
                         of individuals or entities within categories, such as
                         occupation or industry. GIs are initiated to identify
                         noncompliance with the laws enforced by the IRS. The
                         CI function also uses GIs to identify the time special agents
                         spend on specialized projects, such as imprest funds, liaison
                         contacts, coordinating various programs, and various task
                         forces. For purposes of our review, we considered only
                         those GIs designed to identify noncompliance with the law.
                         Whether initiated as a result of noncompliance identified by
                         the compliance function or from a CI function initiative, GIs
                         can serve as a valuable means to identify legal source
                         investigations. However, according to the CIMIS data, the
                         CI function initiated a total of 1,506 legal source
                         investigations during FY 2003, but only 120 of these
                         (8 percent) resulted from a field-generated GI.15
                         CI function management advised us the CIMIS does not
                         clearly show those GIs that are designed for administrative
                         purposes, time tracking, or legal source investigations.
                         According to the CIMIS, there were 976 open GIs as of
                         September 30, 2003. We analyzed 98 GIs that were open in
                         the 3 selected field offices and determined 13 were designed
                         to identify legal source investigations. Many of these GIs
                         have been open for many years, and only three
                         investigations from these GIs were opened in FY 2003.
                         Further, as of the end of FY 2003, only 53 legal source
                         investigations had resulted since these GIs were opened.
                         There was a wide range of opinion among CI function field
                         office management regarding the value of a GI. The SAC in
                         one field office instituted a requirement that each group
                         open a GI to develop legal source investigations. However,
                         the SAC in another office indicated GIs were inefficient.
                         In addition, we reviewed the Review and Program
                         Evaluation (RPE)16 reports from 10 field offices to

                         15
                            We excluded investigations that resulted from the return preparer and
                         questionable refund programs since they are generally identified at the
                         Fraud Detection Centers and not in a CI function field office.
                         16
                            A process whereby the CI function HQ office periodically conducts a
                         review to evaluate the operations of the field offices.
                                                                                        Page 13
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         determine the extent they addressed the field offices’ efforts
                         to use GIs. These reports showed varying degrees of
                         emphasis placed on GIs. Although all of the RPE reports
                         contained a reference to GIs, they did not always address
                         uniform issues and CI function management did not use
                         these reports to identify trends. In fact, we are not aware of
                         any CI function reports that will provide an analysis of the
                         number of open GIs or the effectiveness of those GIs to
                         identify legal source investigations.
                         In October 2003, the CI function proposed the realignment
                         of the LDCs to address concerns raised by our report.17 The
                         realignment specifically called for reprioritizing the work of
                         the LDCs to include identifying and developing leads that
                         fall within the strategic plan. Accordingly, each of the
                         consolidated LDCs was assigned the GI case development
                         responsibilities for a national program priority area in the
                         strategic plan (e.g., offshore and abusive schemes).
                         This renewed emphasis of having the LDCs involved with
                         developing GIs based on program priorities should help
                         increase legal source income investigations. However, we
                         believe the experiences of the special agents are also a
                         valuable source to identify areas of noncompliance in which
                         a GI would be appropriate. Therefore, we believe it is
                         important the CI function use appropriate management tools
                         to monitor and evaluate the effectiveness of GIs on
                         increasing legal source cases. In addition, this information
                         could be helpful in identifying nonproductive legal source
                         GIs, so those resources could be directed toward other
                         initiatives to increase legal source investigations.

                         Recommendations

                         The Chief, CI, should:
                              1. Establish a fraud coordinator position in the
                                 CI function HQ office and in each of the 33 field
                                 offices. This could be a collateral duty.



                         17
                           Lead Development Centers Do Not Significantly Contribute to
                         Increases in Legal Source Cases (Reference Number 2003-10-201,
                         dated September 2003).
                                                                                   Page 14
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                            Management’s Response: The Chief, CI, advised that
                            an analyst from the Financial Crimes Section has been
                            assigned fraud referrals as a program area and a detailed
                            policy memorandum was issued in August 2004
                            directing all field offices to designate fraud referral
                            coordinators.
                            2. Establish control procedures to ensure referrals are
                               processed timely.
                            Management’s Response: The Chief, CI, advised that a
                            detailed policy memorandum was issued in August 2004
                            that implemented a fraud referral tracking system and
                            reemphasized established operating procedures. In
                            addition, the FY 2005 performance commitments for all
                            Supervisory Special Agents include a requirement to
                            timely evaluate fraud referrals.
                            3. Ensure the appropriate management tools are used to
                               monitor and evaluate the results of GIs on legal
                               source investigations.
                            Management’s Response: CI function management will
                            issue a memorandum that reemphasizes the need to
                            monitor all GIs. Further, the memorandum will
                            encourage the closure of nonproductive GIs and will
                            remind the field offices to appropriately link any
                            resulting primary and subject investigations to the GI.
                            4. Issue guidance emphasizing the use of GIs as a
                               means to identify legal source investigations that
                               have the greatest impact on tax administration.
                            Management’s Response: The Chief, CI, stated
                            although employees have been encouraged to use
                            GI projects to develop investigations of noncompliant
                            areas, experience indicates GIs are not the most
                            productive means to develop significant legal source
                            investigations. Nonetheless, CI management agreed to
                            issue a memorandum reminding field offices to consider
                            the appropriate use of GIs in developing future legal
                            source income investigations, but will not insist they do
                            so to the exclusion of other case development sources.



                                                                             Page 15
          The Criminal Investigation Function Has Made Progress in Investigating
                    Criminal Tax Cases; However, Challenges Remain

                                    With a reputation as being one of the best financial
The Criminal Investigation
                                    investigative agencies in the Federal Government and based
Function Must Make Choices
                                    on the various laws it is authorized to investigate, other
on the Types of Investigations to
                                    agencies and the USAOs call upon the CI function to assist
Pursue That Affect Compliance
                                    in various investigations. This often puts the CI function at
                                    odds with balancing its resources between mainstream tax
                                    compliance issues, for which it has sole investigative
                                    authority, and law enforcement against other crimes using
                                    tax or money-laundering charges as a tool. In addition to
                                    cultivating legal source investigations from within the IRS,
                                    the CI function must also be judicious in deciding which
                                    investigations to work with other agencies. The following
                                    issues, real or perceived, affect the CI function’s efforts to
                                    balance its resources and increase the level of legal source
                                    investigations:
                                       •   Inherent barriers beyond the CI function’s direct
                                           control.
                                       •   The relationship of illegal source criminal
                                           investigations to tax compliance.
                                       •   The lack of a goal on the mix of investigations to
                                           pursue.
                                    Inherent barriers beyond the CI function’s direct
                                    control
                                    We realize there are many barriers beyond the CI function’s
                                    direct control that affect its ability to increase the level of
                                    legal source investigations. Foremost are competing
                                    national law enforcement initiatives (e.g., terrorism,
                                    corporate fraud, etc.). While these are important in
                                    protecting our nation, they may not always result in legal
                                    source investigations.
                                    One significant factor that influences the CI function’s
                                    selection of workload is the relationship between the
                                    CI function and the USAOs. While the CI function is
                                    responsible for investigating matters that have criminal tax
                                    fraud prosecution potential, the USAOs have the
                                    responsibility of accepting or declining the prosecution of
                                    those criminal matters.
                                    The tax enforcement process works most effectively if the
                                    CI function and the various USAOs have the same
                                                                                           Page 16
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         priorities. However, where the CI function’s primary
                         responsibility is in tax investigations, the USAOs have
                         assorted prosecutorial goals, of which tax enforcement is
                         only one. The acceptance of a tax case for prosecution may
                         depend not only on the type of violation but also on the
                         geographic location and economic and vocational status of
                         the violator. Given the CI function in essence competes
                         with other agencies for inclusion in the various local
                         USAOs’ agendas, there is a need for the CI function to
                         maintain an effective working relationship with the USAOs.
                         This relationship includes participating in joint
                         investigations which might not always have a strong link to
                         mainstream tax compliance.
                         The Webster Report raised the concern that the USAOs, and
                         not the IRS, determine the CI function’s investigative
                         agenda. The report concluded the CI function was pursuing
                         overall Federal law enforcement initiatives at the expense of
                         tax enforcement. The CI function managers we interviewed
                         in general indicated, while the USAOs’ priorities do have an
                         influence on their workload decisions, it was not an undue
                         influence. Some managers indicated (as do some RPE
                         reports we reviewed) some USAOs might not be inclined to
                         accept a lot of tax cases for prosecution. Some reasons
                         suggested that could cause this in some locations included a
                         generalization that tax cases are more difficult and take
                         more time to prosecute or certain types of tax violations
                         usually are of relatively low financial value (such as many
                         fraudulent refund schemes).
                         We also believe workload decisions may be influenced
                         because the lengths of sentences for tax violations are often
                         less than those for sentences associated with the other
                         criminal violations being investigated. Since sentences
                         often run concurrently, there is no additional punitive
                         benefit to pursuing the tax violation.
                         Nationally, the percentage of investigations opened based
                         on requests from the USAOs has remained relatively
                         constant over the past 4 fiscal years – between 19 and
                         26 percent of initiations per year. These same case
                         initiations resulted in between 7 and 15 percent of the legal
                         source investigations initiated during the same periods. The
                         CI function managers we interviewed in general indicated a
                         case is often selected based on the merits of the
                                                                               Page 17
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         investigation, regardless of whether it would be a legal
                         source investigation. The managers also indicated
                         awareness that legal source cases were a high priority.
                         One of the steps in our audit plan was to review all
                         20 investigations (from the 3 field offices) which started as
                         a tax investigation but the tax charges were later dropped
                         and other nontax charges were pursued. Our objective was
                         to determine whether the CI function was involved in the
                         AUSA’s decision to drop the tax charge. We did not
                         receive 13 of the 20 files requested because of the grand
                         jury restrictions previously described. As a result, we could
                         not assess the efficacy of the observation that AUSAs
                         influence the CI function’s workload.
                         The relationship of illegal source criminal investigations
                         to tax compliance.
                         According to CIMIS data, about 54 percent of the
                         CI function’s investigations during FY 2003 came from the
                         USAOs and other government agencies; however, only
                         17 percent of all legal source investigations came from these
                         sources. In addition, the CI function opened 1,535 illegal
                         source subject investigations, 869 of which had a tax-related
                         charge. The remaining 666 investigations did not have tax-
                         related charges.
                         We selected a judgmental sample of 30 of the 205 illegal
                         source subject investigations (from the 3 field offices) to
                         determine if the CI function is investigating cases that have
                         an impact on overall tax compliance. However, because of
                         the grand jury secrecy provisions and the limited access to
                         case information, we were able to review limited source
                         documents on only 17 investigations opened by 2 of the
                         offices. Based on what we could review, the case initiation
                         documents for 7 of the 17 investigations did not describe the
                         tax compliance of the subject, regarding either legal or
                         illegal income, and had no tax-related allegation associated
                         with the case. The apparent emphasis of each of the seven
                         investigations was stopping and deterring the criminal
                         activity of the subject. In addition, in 7 of the
                         17 investigations we did not identify evidence that
                         suggested a special need for complex financial analysis
                         warranting the assistance of the CI function; however, it was
                         not clear if the other agency involved could have conducted
                                                                               Page 18
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         the investigative steps done by the CI function. The alleged
                         illegal activities in these investigations included crimes such
                         as insurance, consumer, mail, or credit card fraud and
                         embezzlement.
                         According to the CIMIS, during FY 2003, the CI function
                         opened 273 subject investigations involving these 5 illegal
                         activities. About 65 percent were referred from other
                         agencies or the USAOs, and about 26 percent did not have a
                         tax-related violation.
                         The CI function is authorized to work these types of
                         investigations; however, other government agencies also
                         have the authority to investigate these crimes. We are not
                         implying that these were not the best investigations for the
                         CI function to work at that particular time. However, given
                         the CI function’s limited resources, the demands on these
                         resources, and that the CI function is the only agency that
                         can investigate tax violations, we believe these are the types
                         of investigations–absent a clear connection to tax–that the
                         CI function could reevaluate before accepting.
                         The lack of a goal on the mix of investigations to pursue
                         A key management control is to establish goals and then
                         monitor the effectiveness of the efforts to achieve those
                         goals. In 1996, the CI function established a range of 57 to
                         61 percent of Direct Investigative Time (DIT) to be spent on
                         tax gap investigations as its goal for FY 1997 and beyond.
                         However, other than narcotics-related investigations,18 the
                         CI function no longer has any goals or targets on the percent
                         of time or number of investigations that should be targeted
                         to legal source income investigations or other investigative
                         program areas.
                         The CI function managers we talked to are aware of the
                         emphasis to increase legal source investigations, and many
                         stated they work the right case at the right time. The
                         managers generally did not express a strong opinion
                         regarding either the proper mix of investigations or the


                         18
                           The CI function established a goal of 15 percent of DIT for the
                         narcotics program in FY 2004, which is about the amount that is
                         reimbursed for its participation in the Department of Justice Organized
                         Crime Drug Enforcement Task Force investigations.
                                                                                        Page 19
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         pursuit of a specific investigation to attain a certain mix.
                         The Chief, CI, has also recently stated, with a renewed focus
                         in investigative priorities, the CI function is pursuing
                         exactly the right mix of cases that will most effectively
                         target the compliance gap.
                         With the demands for its resources and the Congress’
                         concerns on how these resources are used, we believe the
                         CI function should continue to assess its impact on tax
                         compliance and consider deriving goals for key statistical
                         indicators, such as the percent of investigations initiated or
                         DIT, so resources can be directed to those program areas
                         best suited to achieve these goals. This will also allow the
                         CI function to align its resources with the strategic
                         objectives and investigative priorities described in SPPs and
                         ABPs. We acknowledge the difficulty in establishing goals
                         when existing empirical data do not directly and
                         conclusively provide for such, but we believe some
                         guidance is essential to measure progress in achieving SPP
                         and ABP objectives and priorities.

                         Recommendations

                         The Chief, CI, should establish:
                            5. Additional criteria to guide the field offices in
                               accepting investigations from other government
                               agencies or the AUSA offices when the cases do not
                               involve tax compliance.
                            Management’s Response: The Chief, CI, indicated the
                            FY 2005 ABP provides guidance to assist field offices
                            in developing local plans and action items to support the
                            CI function’s SPP. Special Agents in Charge (SAC)
                            utilize the ABP strategy to set priorities based upon
                            regional and local conditions. Additionally, all SAC
                            performance agreements for FY 2005 include the
                            commitment to work cooperatively with the Department
                            of Justice and other law enforcement partners to
                            investigate other high-impact financial crimes and
                            money laundering cases, with an emphasis on increasing
                            or maintaining the balance of Title 26 and Title 31
                            violations.


                                                                               Page 20
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                            6. National goals on key statistical indicators, such as
                               the percentage of legal source income investigations
                               or direct investigative time, the CI function should
                               strive to achieve. These goals can be expressed as a
                               range within major program areas to provide needed
                               flexibility and can be based on the best available
                               information from CIMIS, CI management’s strategic
                               processes, and other data sources and studies.
                            Management’s Response: The Chief, CI, did not agree
                            with this recommendation. The CI function has no
                            empirical data on which to base a specific target level of
                            legal source investigations. The CI HQ office has
                            directed field management to maintain or increase levels
                            of legal source income investigations and to direct
                            attention to other significant financial investigations
                            which affect tax administration. According to
                            CI function management, the statistical indicators reveal
                            the CI function is currently working at or near an
                            optimal case mix. In addition, CI function management
                            noted the only category for which the CI function can
                            appropriately provide specific DIT target ranges is the
                            Organized Crime Drug Enforcement Task Force
                            Program. This target level is tied directly to the level of
                            funding reimbursement the CI function receives as a
                            result of its involvement in these cases.
                            Office of Audit Comment: We made this
                            recommendation because we believe it is difficult to
                            effectively measure program success or identify and
                            investigate deviations without having an established
                            standard or goal. In the formal response, the Chief, CI,
                            indicated the priority given to legal source income tax
                            cases is clearly stated in the performance management
                            commitments as follows, “I will continue to focus on
                            legal source tax investigations by increasing or
                            maintaining the percentage of legal source inventory and
                            legal source direct investigative time (DIT) to reinforce
                            CI’s core mission.” We believe it is necessary to
                            establish a numeric goal to provide an effective means
                            for measuring and analyzing progress. While we
                            recognize the CI function’s concerns that its work is
                            cyclical and it needs flexibility to be able to respond to

                                                                               Page 21
          The Criminal Investigation Function Has Made Progress in Investigating
                    Criminal Tax Cases; However, Challenges Remain

                                         emerging issues, we believe establishing any goal as a
                                         range would provide the needed flexibility.
                                    As in some of our prior audits,19 we have identified
The Criminal Investigation
                                    inaccuracies and inconsistencies in recording data in the
Management Information
                                    CI function’s various management information systems that
System Does Not Accurately
                                    may prevent management from properly evaluating the
Reflect Efforts to Increase Legal
                                    status or effectiveness of the CI function’s programs,
Source Investigations
                                    including efforts to increase legal source investigations.
                                    Our limited tests identified the following issues relating to
                                    the CIMIS.
                                         •   The definitions of legal and illegal source
                                             investigations do not accurately reflect the substance
                                             of the investigation.
                                         •   The classification of GIs is not accurate.
                                         •   The numbers of fraud referrals and rejections are
                                             overstated.
                                    The definitions of legal and illegal source investigations
                                    do not accurately reflect the substance of the
                                    investigation
                                    The Webster Report cited concerns with the CI function’s
                                    broad definition of tax gap investigations, explaining that
                                    the definition obscured any meaningful attempt to assess the
                                    degree to which the CI function’s work promotes tax
                                    compliance.20 As a result, the CI function changed the
                                    classification of investigations to legal source, illegal
                                    source, and narcotics-related. In simple terms, the
                                    CI function defines legal source income investigations as
                                    investigations that involve taxpayers in legal industries and
                                    legal occupations who earned income legally but chose to

                                    19
                                       Courts Are Not Always Notified When Criminals Fail to Comply
                                    With Their Sentences to Settle Civil Tax Liabilities (Reference
                                    Number 2004-10-060, dated March 2004) and Lead Development
                                    Centers Do Not Significantly Contribute to Increases in Legal Source
                                    Cases (Reference Number 2003-10-201, dated September 2003).
                                    20
                                       Prior to issuance of the Webster Report, the CI function classified
                                    investigations as fraud and narcotics; fraud was further subdivided
                                    between tax gap and other fraud. The tax gap fraud category pertained
                                    to investigations of legal industries with alleged criminal tax violations;
                                    the other fraud category involved illegal industries or money laundering
                                    with no tax-related charges.
                                                                                                      Page 22
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         evade taxes by violation of the tax laws. Illegal source
                         income involves money obtained through illegal sources
                         (other than narcotics) and includes all tax and tax-related, as
                         well as money-laundering and currency reporting,
                         violations.
                         The CI function modified the CIMIS to reflect these
                         changes and classified investigations based on a
                         combination of various data entered into the CIMIS.
                         However, in our opinion, two factors have caused inaccurate
                         classification of the CI function’s investigations.
                         First, CI function officials advised us the former IRS
                         Commissioner wanted to specifically differentiate those
                         cases that only the CI function could investigate. As a
                         result, the definition of legal source income includes only
                         those investigations in which no other Federal or state
                         agency is involved. Cases are classified as illegal source
                         once another agency assists in the investigation.21
                         During FY 2003, the CI function opened
                         4,001 investigations, 1,535 of which were classified as
                         illegal source. Analyzing the CIMIS data, we determined
                         that, based on the current CIMIS definitions, 406 of these
                         1,535 investigations were classified as illegal source solely
                         because another agency was involved, even though the CI
                         function was pursuing only tax or tax-related violations.
                         Because we did not review these cases, we do not know
                         whether any additional nontax charges were brought against
                         the subjects of the investigations by the other agencies; the
                         CIMIS would also not contain this information.
                         As a result of classifying investigations as illegal source
                         when another agency participates, the CIMIS may be
                         understating the time spent on and the number of legal
                         source income investigations. As many as 48 percent of the
                         investigations initiated and 58 percent of the DIT would
                         have been classified as legal source for FY 2003, compared
                         to about 38 and 42 percent, respectively, as reported.


                         21
                           The exceptions are cases in the Return Preparer Program (RPP) and
                         Questionable Refund Program (QRP). Investigations in these programs
                         are automatically classified as legal source regardless of another
                         agencies’ participation. During FY 2003, 88 of the 520 RPP/QRP
                         investigations opened involved other agencies.
                                                                                    Page 23
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         Second, the existing data fields and codes within the CIMIS
                         do not properly define or classify the investigation
                         according to the CI function’s strategy, and the CIMIS does
                         not contain a specific code that captures whether the
                         investigation relates to legal or illegal source income. Two
                         examples illustrate this.
                         •    The subject was an owner of a business and allegedly
                              skimmed receipts from the business by having checks
                              made payable to himself or herself personally in
                              amounts under $10,000. The CIMIS showed the
                              taxpayer was in a legal industry and occupation, there
                              was an alleged tax violation, and no other agency
                              participated. However, the case was considered an
                              illegal source investigation because the nontax-related
                              violation of money laundering was pursued.
                              An analysis of the CIMIS showed there were
                              991 investigations opened in FY 2003 involving
                              subjects in legal industries and occupations classified as
                              illegal source on which the CI function pursued a
                              nontax-related violation in addition to the tax violation.
                              Of these, 239 were classified as illegal solely because of
                              the nontax-related charge. Another agency also
                              participated in the other 752 investigations.
                         •    The subject was alleged to have embezzled a large sum
                              of money from his or her employer and did not report
                              the income on his or her tax returns. The CIMIS
                              showed the taxpayer was in a legal industry and
                              occupation, had a tax charge, had no nontax charges,
                              and no other agency participated in the investigation.
                              Since all existing criteria were met, the CIMIS listed this
                              case as a legal source investigation. However, the
                              source of the income, embezzlement, is an illegal
                              source.22 The CIMIS does not use the illegal activity
                              code when classifying cases.23


                         22
                            Embezzlement is generally considered the illegal act of taking money
                         entrusted to one’s care, such as from an employer.
                         23
                            The illegal activity code is a code used in the CIMIS that best
                         describes the alleged illicit source of income, the alleged unlawful
                         activities which affect tax administration, or an area of noncompliance
                         being probed.
                                                                                       Page 24
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                            The illegal activity as recorded in the CIMIS was
                            “embezzlement” in 154 investigations opened in
                            FY 2003. However, 55 of the 154 investigations were
                            classified as legal source. A review of the description of
                            the allegation in the CIMIS indicates 36 of the
                            55 (65 percent) investigations classified as legal source
                            income may be illegal source income investigations.
                         The first example results in understating the number of legal
                         source investigations; the second example illustrates an
                         overstatement of the number of legal source investigations
                         because the case involves embezzlement or other illegal
                         activity. Due to the nature of the inconsistencies of the
                         coding within the CIMIS, we are unable to determine the
                         overall impact the inconsistent reporting of case type had on
                         the CI function’s compliance strategy. To do so would also
                         require a review of investigative case files.
                         The CI function attempted to use the existing codes in the
                         CIMIS to automatically define investigations according to
                         its compliance strategy. CI function management
                         considered having the field offices determine which codes
                         to use but decided to use standard definitions to remove the
                         subjectivity of the classification from the field offices.
                         However, as indicated by the above examples, the existing
                         coding in the CIMIS is not flexible enough to accurately
                         measure the CI function’s compliance strategy, especially
                         relating to legal source investigations, which have the most
                         significant impact on the broadest range of taxpayers.
                         We recognize the CI function desires to separately tabulate
                         information on those cases that only the IRS has authority to
                         investigate; we concur that the capability to do so has merit.
                         However, CI function management has acknowledged the
                         current definition applied to the legal source category is not
                         perfect. Many of the CI function managers we interviewed
                         agreed the current definition is not always reflective of their
                         workload.
                         The classification of GIs is not accurate
                         The CI function originally classified all GIs as illegal source
                         income investigations (except for those designed to identify
                         narcotics-related investigations or questionable refund or
                         return preparer projects) in an effort to be conservative. We
                                                                                Page 25
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         questioned this because we believed this did not properly
                         record the time devoted to legal source investigations. On
                         April 1, 2004, the CI function issued a memorandum
                         requesting the field offices to review all open GIs and,
                         where appropriate, reclassify those designed to identify
                         legal source investigations.
                         As a result of that memorandum and subsequent follow-up
                         by the CI function HQ office, the CI function classified
                         174 GIs as legal source with over 46,000 staff days,
                         including over 4,000 staff days of DIT in FY 2004 as of
                         June 15.
                         We reviewed these 174 GIs and determined field offices
                         were inconsistent in their classification and
                         38 investigations were misclassified, based on the
                         following:
                            •   GIs used to track administrative activities – 25.
                            •   GIs in which the majority of resulting investigations
                                were illegal source – 12.
                            •   GI used to track liaison time – 1.
                         These errors existed because the CI function did not issue
                         guidelines to the field offices on the criteria to use to
                         classify the GIs as legal source. In addition, there are no
                         guidelines to apply as new GIs are initiated. According to
                         the CIMIS data, as of June 15, 2004, these 38 investigations
                         had about 1,400 staff days erroneously charged as legal
                         source investigations in FY 2004, resulting in a potential
                         overstatement of about 53 percent of the time recorded on
                         legal source GIs.
                         The numbers of fraud referrals and rejections are
                         overstated
                         According to the CIMIS, during FY 2003, the CI function
                         rejected 194 referrals received from IRS compliance
                         functions. We reviewed all 32 referrals rejected by the
                         3 field offices we visited. However, we determined the CI
                         function misclassified 7 of the referrals (22 percent) because
                         the CI function:
                            •   Opened multiple investigations on related
                                individuals (for example, a corporation and its
                                                                               Page 26
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                                officer) rather than establishing one investigation per
                                related case.
                            •   Recorded investigations from other sources as
                                referrals.
                            •   Classified investigations from the Offshore Credit
                                Card Program as referrals prior to the Small
                                Business/Self-Employed (SB/SE) Division
                                conducting an audit.
                         This resulted in overstating the number of referrals and
                         understating the acceptance rate. Since these investigations
                         were improperly classified as referrals, they would also have
                         an adverse effect on the average time it takes the CI function
                         to make an investigative decision on a referral.
                         As a result of recent reviews of the fraud referral program,
                         the CI function and SB/SE Division plan to establish a fraud
                         referral tracking number beginning in FY 2005. This should
                         enhance the accuracy of controlling fraud referrals. As a
                         result, we made no recommendations with respect to
                         accounting for the number of fraud referrals.
                         Accurate management information is critical to establishing,
                         measuring, and evaluating program goals and
                         accomplishments. We believe the statistical information
                         currently provided from the CIMIS, because of the issues
                         described, may mislead or be misinterpreted and thus
                         contribute to some of the concerns expressed by external
                         stakeholders on the CI function’s workload, including the
                         level of legal source investigations.




                                                                               Page 27
The Criminal Investigation Function Has Made Progress in Investigating
          Criminal Tax Cases; However, Challenges Remain

                         Recommendations

                         The Chief, CI, should:
                            7. Conduct an analysis of the CIMIS to determine the
                               impact that inconsistent coding has on the
                               classification of investigations and, if warranted,
                               modify the CIMIS and definitions so the coding
                               properly reflects the true nature and disposition of
                               the investigations and the measurement of the
                               CI function’s compliance strategy.
                            Management’s Response: CI function management
                            reemphasized that all multi-agency investigations are
                            properly coded as illegal source investigations.
                            However, they agreed to initiate a study to determine if
                            there is any commonality among the use of incorrect
                            compliance strategy codes in the CIMIS. The
                            CI function will make appropriate corrections and
                            recommend future changes to the new CIMIS system, if
                            warranted.
                            8. Issue guidelines on the types of GIs that should be
                               classified as legal source. Only those GIs in which
                               the primary purpose is to identify legal source
                               income should be classified as legal source
                               investigations.
                            Management’s Response: The CI function’s initial
                            attempts to correct the CIMIS data were not entirely
                            successful and it subsequently clarified the fraud scheme
                            code section of the CIMIS handbook and provided better
                            instructions. The Office of Financial Crimes will
                            follow-up to ensure the necessary corrections are made.




                                                                             Page 28
           The Criminal Investigation Function Has Made Progress in Investigating
                      Criminal Tax Cases; However, Challenges Remain

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Criminal Investigation (CI) function’s
efforts to increase the number of legal source income tax investigations. To accomplish our
objective, we obtained an extract from the CI function’s Management Information System
(CIMIS)1 for the period ended September 30, 2003. We validated the data received from the
CIMIS by comparing the results of various queries to the CI function’s management information
reports. However, we did not verify the accuracy of the data entered into the CIMIS. We
selected the Denver, Colorado; New York, New York; and Charlotte, North Carolina, field offices
based upon a combination of factors, including total number of investigations worked, percentage of
cases that are legal source, percentage of investigations with tax-related charges,2 fraud referral
acceptance rate, percentage of investigations with tax charges dropped, and percentage of legal
source investigations resulting from a general investigation (GI). Specifically, we:
I.       Identified the sources of the CI function’s legal source workload and determined what the
         CI function is doing to cultivate and increase the number of legal source income tax
         investigations from those sources.
         A. Conducted various analyses of the CIMIS to identify the source and other
            characteristics of the CI function’s inventory and results.
         B. Reviewed a judgmental sample of 10 of the 25 CI function Headquarters (HQ)
            Review and Program Evaluation (RPE)3 reports issued during Fiscal Years
            (FY) 2002 and 2003, including those for the 3 offices visited, and determined if the
            depth of review, results, and related recommendations indicated any emphasis on
            increasing legal source income tax investigations or investigations with tax-related
            statutes. We also determined if any trend reports were prepared from these reviews.
            We used judgmental sampling techniques since the results of evaluating reviews
            could not be projected to a universe.
         C. Identified and reviewed CI function studies, initiatives, or task forces that were
            designed to increase legal source investigations.


1
  The CIMIS is a database that tracks the status and progress of criminal investigations and the time expended by
special agents. It is also used as a management tool that provides the basis for decisions of both local and national
scope.
2
  The CI function defines tax-related as any violation of Title 26 United States Code (U.S.C.) (the Internal Revenue
Code) and the following Title 18 U.S.C. sections (§): §§ 286 and 287 (2004), § 371 (k) (2004) relating to a Title 26
violation, and § 371 (b) (2004) relating to a Title 26 and Title 31 violation. Title 18 includes false claims and money
laundering, and Title 31 involves currency reporting requirements.
3
  The RPE is a process whereby the CI function HQ office periodically conducts a review to evaluate the operations
of the field offices.
                                                                                                             Page 29
            The Criminal Investigation Function Has Made Progress in Investigating
                       Criminal Tax Cases; However, Challenges Remain

          D. Reviewed a judgmental sample of the Special Agents in Charge group operational
             reviews conducted during FY 2003 for 17 of the 32 groups in the 3 field offices
             visited. We used judgmental sampling techniques since the results of evaluating
             reviews could not be projected to a universe.
          E. Evaluated the CI function’s efforts to increase legal source investigations from the
             fraud referral program.
                1) Reviewed all 25 referrals rejected during FY 2003 in the 3 offices selected and
                   determined if the required conferences were conducted, the referrals were timely
                   evaluated, and feedback was provided and was timely.4
                2) Analyzed the CIMIS to determine the time it takes the CI function field office to
                   accept or reject a fraud referral.
                3) Determined if CI function field offices have a fraud referral coordinator.
          F.    Evaluated the CI function’s efforts to increase legal source investigations from GIs.
                1) Discussed and obtained information from the CI function HQ office on the number
                   of GIs that are designed to increase legal source investigations, the results of those
                   projects, and if these projects were initiated based on the empirical studies or other
                   known areas of noncompliance.
                2) Analyzed the CIMIS to determine the number of GIs opened, those that relate to
                   legal source investigations, and the number of subject investigations resulting from
                   the GIs.
          G. Determined if the CI function is investigating cases that have an impact on overall tax
             compliance by selecting a judgmental sample of 30 of the 205 illegal source
             investigations opened during FY 2003 in the 3 selected offices. We used judgmental
             sampling techniques due to the small universe and because we did not plan to project
             our results.
                   Auditor’s Note: We were unable to complete this test. We did not receive 13 of
                   the case files requested due to the grand jury secrecy provisions. Our results are
                   based on the review of limited documentation in 17 of the 30 case files.
II.       Identified the barriers that prevent the CI function from increasing legal source workload
          and determined what the CI function is doing to minimize or eliminate those barriers.
          A. Interviewed CI function management to determine their perceptions of what is
             preventing the CI function from increasing legal source investigations.
          B. From the 3 field offices visited, selected all 20 investigations in which the case started
             as a tax case but was recommended for prosecution without a tax charge and attempted

  4
    The CIMIS shows the CI function rejected 32 referrals. However, the CI function erroneously classified seven
  investigations as fraud referrals.
                                                                                                           Page 30
              The Criminal Investigation Function Has Made Progress in Investigating
                         Criminal Tax Cases; However, Challenges Remain

                 to determine if the CI function was involved in the Assistant United States Attorney’s
                 decision to drop the tax charge.
                     Auditor’s Note: We were unable to complete this test. Due to the grand jury
                     secrecy provisions, we did not receive 13 of the 20 investigations requested. The
                     limited information we received precluded us from reaching any conclusions from
                     this test.
III.        Determined if the CIMIS is sufficiently reliable to enable CI function management to make
            informed decisions and evaluate its ability to increase legal source investigations.
            A. Interviewed CI function management to discuss the reasons for the existing definition
               of legal source tax investigations.
            B. Analyzed the CIMIS to identify investigations that were classified as illegal income
               because another government agency was involved in the case.
            C. Determined whether the CI function issued any guidelines for entering the Strategy
               Codes5 for GIs into the CIMIS.
            D. Analyzed the CI function’s reclassification of GIs to legal source investigations.
            E. Used the results of our tests on fraud referrals to determine the accuracy of reporting
               fraud referrals on the CIMIS.




   5
     The strategy codes are: legal source tax crimes, illegal source financial crimes, and narcotics-related financial
   crimes.



                                                                                                                 Page 31
        The Criminal Investigation Function Has Made Progress in Investigating
                   Criminal Tax Cases; However, Challenges Remain

                                                                                Appendix II


                               Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Michael J. Hillenbrand, Lead Auditor
Timothy A. Chriest, Senior Auditor
Janice A. Murphy, Senior Auditor
Janis Zuika, Auditor




                                                                                      Page 32
         The Criminal Investigation Function Has Made Progress in Investigating
                  Criminal Tax Cases; However, Challenges Remain

                                                                            Appendix III


                                    Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                  Page 33
            The Criminal Investigation Function Has Made Progress in Investigating
                     Criminal Tax Cases; However, Challenges Remain


                                                                                                   Appendix IV


                     Criminal Investigation Function Statistical Indicators

To evaluate the Criminal Investigation (CI) function’s progress in investigating criminal tax
violations, we compiled various statistics that depict inventory and results for all tax-related1 and
legal source tax investigations for Fiscal Years (FY) 1999 through 2004. Where data were
available, we present two charts for each statistical indicator: the first chart depicts the
relationship between tax-related and nontax-related investigations; the second chart depicts the
relationships among the CI function’s three program areas of legal source, illegal source, and
narcotics-related financial crimes (narcotics). We also calculated in the second chart within each
section below the percentage of legal source investigations to the total number of investigations.
We included both views because legal source investigations are an important component of all
tax-related investigations, and the CI function has consistently described legal source tax cases as
a top investigative priority.
Subject Investigations Initiated
The CI function initiates a subject criminal investigation when it believes a taxpayer has
committed a crime and there is likelihood for successful criminal prosecution. Thus, the
percentage of all tax-related and legal source income tax investigations initiated is an important
element in evaluating the CI function’s efforts to investigate tax fraud.
As Chart 1 depicts, tax-related investigations comprised 48.6 percent of all investigations
initiated in FY 1999; that increased 6.6 percentage points to 55.2 percent in FY 2004. However,
as depicted in Chart 2, the percentage of investigations initiated that were classified as legal
source was virtually unchanged during the same period (34.8 percent in FY 1999 compared to
35 percent in FY 2004). Further, between FYs 2002 and 2004, the percentages of tax-related and
legal source tax investigations initiated both declined, by 8 and 4.8 percentage points,
respectively. CI function management has attributed the recent decline from FYs 2003 to 2004
to its efforts to reduce the number of overage investigations. Rather than opening new
investigations, special agents are putting more resources into completing existing investigations.




1
 The CI function defines tax-related as any violation of Title 26 United States Code (U.S.C.) (the Internal Revenue
Code) and the following Title 18 U.S.C. sections (§): §§ 286 and 287 (2004), § 371 (k) (2004) relating to a Title 26
violation, and § 371 (b) (2004) relating to a Title 26 and a Title 31 violation. Title 18 includes false claims and
money laundering, and Title 31 involves currency reporting requirements.
                                                                                                            Page 34
            The Criminal Investigation Function Has Made Progress in Investigating
                     Criminal Tax Cases; However, Challenges Remain

                  Chart 1: Number of Tax-Related and Nontax-Related Subject Investigations
                       Initiated and the Percentage That Is Tax-Related (by fiscal year)

                 3000                                                                                               100%




                                                                         8




                                                                                       2
                                                                       46




                                                                                     45
                                                                                                                    90%




                                                                     2,




                                                                                   2,
                 2500




                                                                                                        4
                                                                                                      16
                                                                                                                    80%

                                 3




                                                                                                    2,
                              03
                               9
                           91




                                                           4
                            2,



                                                 6




                                                                             8
                                                         85
                                                                                                                    70%




                                                                                                            3
                         1,




                                               78




                                                                           43




                                                                                                          75
                 2000




                                                       1,
                                             1,




                                                                         1,
                                             6




                                                                                               9


                                                                                                        1,
                                           58




                                                                                             54
                                                                                                                    60%




                                                               0
                                         1,




                                                                                           1,
                                                             43
                                                                       63.2%




                                                           1,
                 1500                                                               61.3%                           50%
                                                        56.5%                                         55.2%
                           48.6%           53.0%
                                                                                                                    40%
                 1000
                                                                                                                    30%
                                                                                                                    20%
                  500
                                                                                                                    10%
                     0                                                                                              0%
                           FY99            FY00          FY01          FY02          FY03             FY04

                                         Tax-Related           Nontax-Related        % Tax-Related

               Source: The CI function’s Business Performance Reviews (BPR).
                          Chart 2: Number of Subject Investigations Initiated by Compliance
                         Strategy and the Percentage That Is Legal Source (by fiscal year)

                  1800                                                                                              80%
                                                                             4




                                                                                                            7
                                                                                        6

                                                                                        5
                                                                          55
                                     5




                                                                                                          53
                                                                           5


                                                                                      50

                                                                                      53
                                   49




                                                                        48
                                                                        1,




                  1600                                                                                  1,
                                                                                   1,

                                                                                   1,



                                                                                                        0
                             4




                                                                                                                    70%
                                 1,




                                                                     1,




                                                                                                      37
                           37




                                                           3
                                                        31




                                                                                                   1,
                                                         4
                         1,




                                                       25




                  1400
                                                 0 1,




                                                                                                                    60%
                                                    1,



                                                   9
                               3




                                                 10
                             08




                                                 9




                                                                                                                0

                  1200
                                             02
                                             00




                                                                                                              01
                                              1,
                           1,




                                                                                                                    50%
                                                                                             0
                                           1,


                                           1
                                          1,




                                                                                                            1,
                                                                                           96
                                         95




                                                                               7




                  1000
                                                                             86




                                                                                                                    40%
                   800                                                   39.8%
                                            37.2%                                     37.6%            35.0%        30%
                   600       34.8%
                                                          31.1%
                   400                                                                                              20%

                   200                                                                                              10%

                     0                                                                                              0%
                            FY99            FY00         FY01           FY02         FY03             FY04

                                            Legal        Illegal       Narcotics           % Legal

              Source: The CI function’s BPRs.2


2
  The numbers for legal source investigations in Charts 2, 3, 5, 7, and 9 reflect the classification at the end of the
fiscal year and may be slightly overstated in FYs 1999 and 2000. These were transition years in which the CI
function reclassified investigations from tax gap (the difference between taxes paid and owed) and other fraud to
legal and illegal source investigations. As a result, some investigations classified as legal source at the fiscal year
end were subsequently reclassified as illegal source. The CI function reports the original numbers to maintain
consistency.
                                                                                                                           Page 35
            The Criminal Investigation Function Has Made Progress in Investigating
                     Criminal Tax Cases; However, Challenges Remain

Direct Investigative Time
Direct investigative time (DIT) is defined as the time spent by special agents conducting
investigations and other law enforcement activities. As with investigations initiated, DIT is
another important element in evaluating efforts to increase tax-related and legal source tax
investigations. The percentages of DIT depict where the CI function is expending its resources.
The amount of DIT on all tax-related and legal source tax investigations shows results
comparable to investigations initiated. The CI function increased its DIT on all tax-related
investigations by 6.3 percentage points, from 59.9 percent in FY 1999 to 66.2 percent in
FY 2004. However, the DIT spent on legal source tax investigations was virtually unchanged
during the same period, having gone from 43.3 percent in FY 1999 to 43.2 percent in FY 2004.
Unlike investigations initiated, the trend for the last 2 fiscal years for DIT expended is positive,
with tax-related and legal source tax investigations increasing 4.9 and 3.3 percentage points,
respectively. Chart 3 depicts these trends; we have included a 6-year trend line to further
illustrate the relative movement for FYs 1999 through 2004 for these 2 categories.
                              Chart 3: Percentage of Tax-Related and Legal Source DIT




                                                                                        %




                                                                                                    %
               70%




                                                                                      .7




                                                                                                  .2
                                                                          %




                                                                                    65




                                                                                                66
                              %




                                                          %
                                              %




                                                                        .3
                            .9




                                                        .9
                                            .8




                                                                      61
                          59




                                                      59
                                          59




               60%
                          %




                                                                                                %
               50%
                                                                                    %
                                          %
                        .3




                                                                                              .2
                                                                                  .4
                                        .8




                                                                      %
                      43




                                                                                            43
                                                      %




                                                                                42
                                      41




                                                                    .9
                                                    .1




                                                                  39
                                                  39




               40%


               30%


               20%


               10%


                0%
                         FY99           FY00         FY01           FY02          FY03        FY04

                                                   Legal Source   Tax-Related

                Source: The CI function’s BPRs and analysis of the Criminal Investigation Management
                Information System (CIMIS).3




3
  The CI function calculated tax-related DIT based on all legal source investigations being tax-related. In addition,
some indirect time, considered tax administration-related, was included as legal source DIT. Chart 3 reflects that
definition. The CI function began reporting tax-related DIT in the FY 2004 BPR based on the tax violation. The
tax-related DIT reflected in the chart is slightly higher than that reported in the FY 2004 BPR because some legal
source cases do not have a tax-related charge, and indirect time does not have any violation associated with it.
                                                                                                              Page 36
          The Criminal Investigation Function Has Made Progress in Investigating
                   Criminal Tax Cases; However, Challenges Remain

Subject Investigations in Inventory
Inventory levels at fiscal year end provide a snapshot of the relative mix of open subject
investigations the CI function has available. Again, as shown in Charts 4 and 5, the figures are
comparable. The percentage of tax-related investigations in inventory in FY 1999 was
69.7 percent and has increased 6.2 percentage points to 75.9 percent in FY 2004. However, as
shown in Chart 5, the percentage of legal source tax investigations in inventory remained
virtually unchanged, declining slightly from 50.7 percent in FY 1999 to 49.6 percent in FY 2004.
The trends for the last 2 fiscal years for both tax-related and legal source tax investigations are
relatively flat. CI function management advised that the decreases in the total number of
investigations in all categories from FYs 2003 to 2004 can also be attributed to their efforts to
reduce older investigations.
        Chart 4: Number of Tax-Related and Nontax-Related Subject Investigations in Inventory
                      and the Percentage That Is Tax-Related (by fiscal year)

            4000                                                                                                 100%




                                                                                     8
                                                                                   45
                                                                     7
                                                                   33

                                                                                                                 90%


                                                                                 3,




                                                                                                     0
            3500




                                                                                                   14
                                                                 3,
                                                       9
                       5




                                       9




                                                     72




                                                                                                 3,
                     70




                                                                                                                 80%
                                     62




            3000
                                                   2,
                   2,




                                                                         75.9%           74.9%           75.9%
                                   2,




                                                            73.7%
                           69.7%           70.1%                                                                 70%
            2500
                                                                                                                 60%
            2000
                                                                                                                 50%
                           7




                                                                                        7
                                          0
                         17




                                                                         8




                                                                                      15
                                        12




                                                                       05




            1500
                       1,




                                                                                                     6
                                                                                    1,
                                                         3
                                      1,




                                                                                                                 40%


                                                                                                   99
                                                                     1,
                                                       97




            1000                                                                                                 30%
             500                                                                                                 20%
               0                                                                                                 10%
                     FY99            FY00            FY01           FY02           FY03          FY04

                                   Tax-Related             Nontax-Related        % Tax-Related

          Source: The CI function’s BPRs and analysis of the CIMIS.




                                                                                                                        Page 37
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain

   Chart 5: Number of Subject Investigations in Inventory by Compliance Strategy
              and the Percentage That Is Legal Source (by fiscal year)




                                                                                 0
   2500                                                                                                         80%




                                                                               17
                                                                 2




                                                                                                    0
                                                               10




                                                                                                  05
                                                                             2,
              8
            96




                                                            2,
                                                                                                                70%




                                                                                               2,
                               9




                                                                                          3
                             83
          1,




                                                                    5




                                                                                        78
                                               1
   2000




                                                                  69
                          1,




                                             68




                                                                                     1,




                                                                                                         4
                                                                                                                60%




                                                                1,




                                                                                                       54
                                           1,


                                                        2




                                                                                                    1,
                                                      40
                  50.7%
                                   49.1%                                                                        50%




                                                   1,
   1500
             90 5


                                                                                                        49.6%
                 00



                                                                     47.8%            47.0%                     40%

                              79 1
                                                   45.4%
               1,




                                  11
               9




                                9
   1000                        1,
                                                                                                                30%




                                                                                        2
                                                        9




                                                                       8




                                                                                      66




                                                                                                          2
                                                      61




                                                                     59




                                                                                                        54
                                                                                                                20%
    500
                                                                                                                10%
      0                                                                                                         0%
             FY99             FY00            FY01              FY02            FY03               FY04

                               Legal          Illegal         Narcotics              % Legal

Source: The CI function’s BPRs and analysis of the CIMIS.




                                                                                                                      Page 38
          The Criminal Investigation Function Has Made Progress in Investigating
                   Criminal Tax Cases; However, Challenges Remain

Prosecution Recommendations
When the CI function completes an investigation, the case is either discontinued, meaning there
are no further prospects for proceeding with criminal charges, or the case is provided to the
Department of Justice Tax Division or a United States Attorney Office for consideration of
criminal prosecution. Thus, prosecution recommendations are reflective of successful criminal
investigations and reflect on the quality of the investigation.
Chart 6 shows the percentage of prosecution recommendations involving tax-related
investigations increased 4.6 percentage points, from 43.6 percent in FY 1999 to 48.2 percent in
FY 2004. However, as shown in Chart 7, recommendations on legal source tax investigations
declined 2.7 percentage points, from 31.3 percent in FY 1999 to 28.6 percent in FY 2004. Also,
for FY 2004, the percentages for both tax-related and legal source tax investigations decreased to
FY 2002 levels, after increasing in FY 2003.
       Chart 6: Number of Tax-Related and Nontax-Related Subject Investigations Recommended
                for Prosecution and the Percentage That Is Tax-Related (by fiscal year)


         2000              61                                                                               100%
         1800           1,7                                                                                 90%
                                                                                                        3
                                                                                                  64 ,57
         1600      59                      89                                     59           1,4 1        80%
                1,3                     1,3                 26                 1,3
         1400                                            1,3                              82                70%
                                   45                               29 ,104            1,1
                                                   09
         1200                   1,0             1,0              1,0   1                                    60%
         1000                                                                                               50%
          800                                                                     53.5%           48.2%     40%
                                                        43.2%       48.2%
          600       43.6%           42.9%                                                                   30%
          400                                                                                               20%
          200                                                                                               10%
            0                                                                                               0%
                   FY99           FY00            FY01            FY02          FY03            FY04

                                  Tax-Related           Nontax-Related        % Tax-Related

         Source: The CI function’s BPRs and analysis of the CIMIS.




                                                                                                                   Page 39
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain

      Chart 7: Number of Subject Investigations Recommended for Prosecution by
    Compliance Strategy and the Percentage That Is Legal Source (by fiscal year)

 1400                                                                                        80%




                                                                                     9
                                                                                   28
                  1




                                                                                 1,
                16
              1,
 1200                                                                                        70%




                                                                     4
                                                                   03
                                                                 1,
          8
          1




                                         3
        97
        98




                                       95
                                 6
 1000                                                                                        60%




                               92




                                                                                         9
                                                         4




                                                                                 9

                                                                                       87
                                             7



                                                       86




                                                                               86
                                           84
                           9




                                                                 3
                         79




                                                               82
  800                   9                                                                    50%




                                                                          4
                      70




                                                           9




                                                                        68
                                                         65
                                                   0
                                                 61
                                       5
                                     53
  600                                                                                        40%

  400                                                                                        30%
         31.3%                                                       32.4%
                         29.1%                         28.6%                     28.6%
  200                                  22.9%                                                 20%

   0                                                                                         10%
         FY99           FY00           FY01            FY02          FY03            FY04

                           Legal       Illegal    Narcotics          % Legal

 Source: The CI function’s BPRs and analysis of the CIMIS.




                                                                                                   Page 40
          The Criminal Investigation Function Has Made Progress in Investigating
                   Criminal Tax Cases; However, Challenges Remain

Pipeline Inventory
The CI function defines pipeline inventory as investigations that have been recommended for
prosecution and are awaiting final actions by the criminal justice system (i.e., the subject has not
been convicted, acquitted, or dismissed). As shown in Chart 8, the percentage of tax-related
cases in pipeline inventory decreased 1.9 percentage points from FYs 1999 to 2004. Chart 9 also
shows a declining trend for legal source tax investigations for the same period. The percentage
of legal source tax investigations decreased 7.4 percentage points, from 40.8 percent in FY 1999
to 33.4 percent in FY 2004. Further, while the number of tax-related pipeline cases is at a 5-year
high and legal source investigations are at a 4-year high, the percentages of tax-related and legal
source investigations declined from FY 2003 to FY 2004.
        Chart 8: Number of Tax-Related and Nontax-Related Subject Investigations in the Pipeline
                       and the Percentage That Is Tax-Related (by fiscal year)
                       9




            2500                                                                                      100%
                     24
                   2,




                                                                                              4
                                                                                            05
                                                                                                      90%
                                   7




                                                                                          2,
                                 92




                                                                              0
                               1,




            2000                                                                                      80%


                                                                            79
                                                                          1,
                           0




                                                                                                  9
                                                      3
                                      7
                         59




                                                                                                56
                                                    56
                                    54




                                                                                                      70%
                                                              6
                       1,




                                                                                              1,
                                                  1,
                                  1,




                                                  3


                                                            48
                                                37




                                                                                      1
                                                          1,


                                                                  4


            1500                                                                                      60%
                                                                                    27
                                              1,




                                                                25




                                                                                  1,
                                                              1,




                     58.6%                                                        58.5%      56.7%    50%
                                 55.5%
            1000                                 53.2%            54.2%                               40%
                                                                                                      30%
             500                                                                                      20%
                                                                                                      10%
               0                                                                                      0%
                     FY99        FY00           FY01         FY02            FY03           FY04

                                Tax-Related        Nontax-Related         % Tax-Related

            Source: The CI function’s BPRs and analysis of the CIMIS.




                                                                                                             Page 41
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain

     Chart 9: Number of Subject Investigations in the Pipeline by Compliance
        Strategy and the Percentage That Is Legal Source (by fiscal year)

    1750                                                                                                                80%


              6
           56




                                                                                                              70
           1,                                                                                                           70%




                                                                                                               4
    1500




                                                                                                            1,
                                  77
                    0




                                                                                                       9
                                   2
                    22




                                                                                                       20
                                1,


                                         45
                                                                                                                        60%




                                                               1




                                                                                                0
                  1,




                                                                                                     1,
                                                                                         8
                                                            10




                                                                                             17
                                          1
    1250




                                                                                      07
                                       1,
                            3




                                                            1,




                                                                                           1,
                                                                              3
                                                52




                                                                                      1,
                         05




                                                                           02
                                                                                                                        50%




                                                 0
                     1,




                                                                          1,
                                                        6
                                              1,




                                                                                                                    4
                                                                   9
                                                     91




                                                                                                                   94
    1000




                                                                         7
                                                                 91


                                                                       86



                                                                                  0




                                                                                                3
                                                                               85




                                                                                              81
                                                                                                                        40%
     750            40.8%
                                        36.8%                                                35.2%            33.4%     30%
                                                             31.2%          31.6%
     500
                                                                                                                        20%
     250                                                                                                                10%

       0                                                                                                                0%
                FY 99                  FY00             FY01             FY02              FY 03        FY 04

                                        Legal           Illegal         Narcotics          % Legal

 Source: The CI function’s BPRs and analysis of the CIMIS.




                                                                                                                              Page 42
          The Criminal Investigation Function Has Made Progress in Investigating
                   Criminal Tax Cases; However, Challenges Remain

Publicity Rate
The publicity rate is the percentage of investigations that receive media exposure (whether local
or national coverage) during the course of an investigation. As part of its strategy to encourage
compliance, the CI function embarked on an effort to increase the publicity on cases it
investigates. As depicted in Chart 10, the publicity rate on legal source investigations rose from
58 percent in FY 1999 to 71 percent in FY 2004. Similarly, the publicity rate on illegal source
investigations rose from 69.7 percent to 78.1 percent.
               Chart 10: Publicity Rate on Subject Investigations by Compliance Strategy


             90%
                                                                                                     %                %
                                                                                 %                 .7               .1
             80%                                                               .1                77               78
                             .7
                               %                                             76
             70%           69                                    .5
                                                                   %




                                                                                                              %
                                                               64




                                                                                                            .0
                                                  %
                                                .5




                                                                                                          71
                                 %




                                              59




                                                                                     %




                                                                                                                      %
                                                                        %
             60%




                                                                                             %
                               .1




                                                                                   .0




                                                                                                                    .8
                                                                                                      %
                                                                      .8




                                                                                           .9
                             58




                                                                                 57




                                                                                                                  55
                                                                                                    .0
                                                                    62
                                                   %




                                                                    %




                                                                                         67
                                                           %




                                                                                                  56
                                                 .1




                                                                  .1

             50%
                                                         .6
                       %




                                         %

                                               49




                                                                48
                                                       54
                     .0




                                       .6
                   58




                                     49




             40%

             30%

             20%

             10%

              0%
                       FY99                  FY00           FY01           FY02             FY03              FY04

                                             Legal Source       Illegal Source       Narcotics

           Source: The CI function’s BPRs and analysis of the CIMIS.




                                                                                                                          Page 43
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain

                                                                 Appendix V


           Management’s Response to the Draft Report




                                                                         Page 44
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 45
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 46
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 47
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 48
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 49
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 50
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 51
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 52
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 53
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 54
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 55
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 56
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 57
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 58
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 59
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 60
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 61
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 62
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 63
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 64
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 65
The Criminal Investigation Function Has Made Progress in Investigating
         Criminal Tax Cases; However, Challenges Remain




                                                                         Page 66
